UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
David J. Smith
Clerk of Court

For rules and forms visit
www.call.uscourts.gnv

August 11, 2020
MEMORANDUM TO COUNSEL OR PARTIES
Appeal Number: 18-11769-HH
Case Style: Gersu Guisao v. Secretary, Florida Department, et al
District Court Docket No: 8:15-cv-00009-MSS-AAS
The enclosed order has been entered on petition(s) for rehearing.
See Rule 41, Federal Rules of Appellate Procedure, and Eleventh Circuit Rule 41-1 for
information regarding issuance and stay of mandate.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Christopher Bergquist, HH/lt
Phone #: 404-335-6169
REHG-1 Ltr Order Petition Rehearing

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 18-11769-HH
GERSU GUISAO,
Petitioner - Appellant,
versus

SECRETARY, FLORIDA DEPARTMENT OF CORRECTIONS,
ATTORNEY GENERAL, STATE OF FLORIDA,
Respondents - Appellees.
Appeal from the United States District Court
for the Middle District of Florida
ON_PETITIQN(S') FOR REHEARING AND PETITIONS FOR REHEARING EN BANC
BEFORE: WILLIAM PRYOR, MARTIN and HULL, Circuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no judge in regular active service on the Court
having requested that the Court be polled on rehearing en banc. (FRAP 35) The Petition for
Rehearing En Banc is also treated as a Petition for Rehearing before the panel and is DENIED
(FRAP 35, IOP2)

ORD-42

CL

Case: 18-11769

Date Filed: 03/10/2020

Page: 1 of 4

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 18-11769
Non-Argument Calendar

D.C. Docket No. 8:15-cv-00009-MSS-AAS
GERSU GUISAO,
Petitioner-Appellant,
versus
SECRETARY, FLORIDA DEPARTMENT OF CORRECTIONS,
ATTORNEY GENERAL, STATE OF FLORIDA,
Respondents-Appellees.

Appeal from the United States District Court
for the Middle District of Florida
(March 10, 2020)
Before WILLIAM PRYOR, MARTIN and HULL, Circuit Judges.
PER CURIAM:

Al

Case: 18-11769

Date Filed: 03/10/2020

Page: 2 of 4

Gersu Guisao, a Florida prisoner, appeals the sua sponte dismissal of his
petition for a writ of habeas corpus as untimely. We issued a certificate of
appealability on the issue whether the district court procedurally erred in sua
sponte dismissing Guisao’s petition as untimely without ordering the State to
respond. We affirm,
Guisao is serving a life sentence in Florida for sexual battery. After seeking
postconviction relief in state court, he filed a petition for a writ of habeas corpus in
federal court. See 28 U.S.C. § 2254. The district court conducted a preliminary
review of Guisao’s petition, see Rules Governing § 2254 Cases, Rule 4, and
concluded that it was untimely. See 28 U.S.C. § 2244(d). The court ordered Guisao
to show cause why it should not dismiss his petition on that ground and warned
him that it would dismiss his petition if he did not timely respond. See Day v.
McDonough, 547 U.S. 198, 209-10 (2006). Guisao argued that he was entitled to
equitable tolling, see Holland v. Florida, 560 U.S. 631, 645 (2010), and that the
actual-innocence exception to the limitations period applied, see McQuiggin v.
Perkins, 569 U.S. 383, 386 (2013). The court explained that Guisao’s response
failed on both fronts, but it gave him a second opportunity to show that his petition
was timely. It warned him that “[a]n insufficient response, or the failure to
respond,... will, result in the dismissal of this action without further notice.” The

2

Pit

Case: 18-11769

Date Filed: 03/10/2020

Page: 3 of 4

court determined that Guisao’s second response was insufficient, so it dismissed
his petition as untimely.
The only issue on appeal is whether the district court procedurally erred
when it sua sponte dismissed Guisao’s petition as untimely without ordering the
State to respond. We review a district court’s decision to sua sponte raise the
untimeliness of a petition for abuse of discretion. Paez v. Sec y, Fla. Dep’t of
Corr., 947 F.3d 649, 651 (11th Cir. 2020). After the parties filed their briefs, we
issued a new opinion in Paez. We held that untimely petitions are subject to
dismissal at the screening stage under Rule 4, which requires district courts to
dismiss petitions that are “legally insufficient on [their] face,” if the court provides
the petitioner with notice and an opportunity to be heard. Id. at 653 (internal
quotation marks omitted). We explained that the district court did not abuse its
discretion when it dismissed a petition that it had determined to be untimely
without ordering the State to respond because it provided the petitioner with
“notice of its decision and an opportunity to be heard in opposition.” Id. Because
of Paez's relevance to this appeal, we ordered the parties to submit supplemental
letter briefs addressing its impact.
Guisao admits that Paez “eliminate^] the argument” in his initial brief about
the sua sponte dismissal of his petition because it is plain from the face of his
petition that he filed it “almost a year too late,” and the district court gave him
3

A3

Case: 18-11769

Date Filed: 03/10/2020

Page: 4 of 4

notice and an opportunity to be heard in opposition before the dismissal. But he
argues that Paez is distinguishable. Without explaining why, he contends that
because he tried to invoke equitable tolling or the actual-innocence exception, the
court should have ordered the State to respond.
His attempt to distinguish Paez is unpersuasive. It is clear from the face of
Guisao's petition and the judicially noticed online docket entries for his state
proceedings, see id. at 652-53, that he filed his petition well beyond the one-year
limitations period. The district court gave him two opportunities to argue to the
contrary, and it warned him that an insufficient response would result in dismissal.
We discern no error in the district court’s ruling that Guisao’s responses failed to
show that his petition was timely. Paez establishes that the district court did not
abuse its discretion, especially because Guisao, not the State, had the burden of
establishing either equitable tolling or the actual-innocence exception and
possessed the necessary information. See McQuiggin, 569 U.S. at 386; Holland,
560 U.S. at 649.
We AFFIRM the sua sponte dismissal of Guisao’s petition as untimely.

4

CaseJ3:15-cv-00009-MSS-AAS

s

Document 10

Filed 03/26/2018

Page 1 of 9 PagelD 88

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION

GERSU GUISAO
Petitioner,
v.

Case No. 8:15-cv-9-T-35AAS

SECRETARY, DEPARTMENT
OF CORRECTIONS, ef a/.,
Respondent.
ORDER
Gersu Guisao petitions for the writ of habeas corpus under 28 U.S.C. § 2254.
(Doc. 1) This cause comes before the Court on Petitioner Guisao’s response to the
second Order to show cause why federal review of his petition is not barred. (Docs. 7
and 8) Upon consideration of the petition and the responses, and in accordance with the
Rules Governing Section 2254 Cases in the United States District Courts, it is ORDERED
that the petition is DISMISSED AS TIME-BARRED:
Earlier Orders determined that Guisao’s petition is untimely, and in response to
those Orders, Guisao asserts entitlement to the “actual innocence" exception to the
limitation.

As discussed in the earlier Orders and in this Order, “actual innocence”

requires evidence that was unknown and could not have been known at the time trial.
Only an “extraordinary case” will qualify for the “actual innocence" exception because
qualifying is “rare.” Guisao fails to adequately show his “actual innocence" because the
evidence upon which he relies was admittedly available at trial and at the post-conviction

E>\

Case 8:15-cv-00009-MSS-AAS

Document 10

Filed 03/26/2018

Page 2 of 9 PagelD 89

evidentiary hearing, at which Guisao explicitly abandoned presenting the evidence he
now claims shows his actual innocence.

BACKGROUND
Guisao challenges the validity of his state conviction for sexual battery by an adult
with the victim being less than twelve, for which he is imprisoned for life. In an earlier
Order the Court found that Guisao’s petition is untimely and instructed him to establish
entitlement either tp actual innocence or to equitable tolling, or otherwise show why his
petition should not be time-barred from federal review. (Doc. 5) See Day v. McDonough,
547 U.S. 198, 210 (2006) (Although a district court may raise timeliness sua sponte,
“before acting on its own initiative, a court must accord the parties fair notice and an
opportunity to present their positions.”). In his response to the first Order to show cause
(Docs. 5 and 6), Guisao argued (1) that he is entitled to equitable tolling and (2) that he
has evidence that will prove his actual or factual innocence. A second Order to show
cause (Doc. 7) determined that Guisao’s claim of ineffective assistance of counsel during
post-conviction proceedings does not satisfy the requirements for equitable tolling.
Lawrence v. Florida, 549 U.S. 327, 336-37 (2007) (“[C]ounsel's mistake in miscalculating
the limitations period ... is simply not sufficient to warrant equitable tolling, particularly in
the post-conviction context where prisoners have no constitutional right to counsel.”).
Additionally the second Order determined that the attorneys’ allegedly not knowing the
statutory limitation does not change this analysis.
the second Order also determined that Guisao did not satisfy the actual innocence
exception because he failed to adequately explain the testimony by his proposed medical
expert, Dr. Edward N. Willey.

Based on this finding, the Court directed Guisao to

2

Bz.

Case 8:15-cv-00009-MSS-AAS

Document 10

Filed 03/26/2018

Page 3 of 9 PagelD 90

“(1) disclose the substance of Dr. Willey’s proposed testimony, (2) explain when he
learned about Dr. Willey’s possible testimony, and (3) explain why the testimony was not
presented at trial or if the testimony was presented in the post-conviction proceedings.”
(Doc. 7 at 6) In response, Guisao argues that the petition should not be dismissed as
time-barred because of the “fundamental constitutional miscarriage of justice exception”
and the actual innocence exception. (Doc. 8 at 2) However the miscarriage of justice
exception and the actual innocence exception are the same exception. See Sawyer v.
Whitley, 505 U.S. 333, 333 (1992) (“The miscarriage of justice exception applies where a
petitioner is 'actually innocent’ of the crime of which he was convicted.”); Schlup v. Delo,
513 U.S. 298, 321 (1995) (“To ensure that the fundamental miscarriage of justice
exception would remain ‘rare’ and would only be applied in the ‘extraordinary case,’ while
/

at the same time ensuring that the exception would extend relief to those who were truly
deserving, this Court explicitly tied the miscarriage of justice exception to the petitioner's
innocence.”); House v. Bell, 547 U.S. 518, 537 (2006) (using both miscarriage of justice
and actual innocence to describe the same exception).
In his response Guisao incorporates his arguments in the original petition and
supporting memorandum and addresses the three questions the Court posed in the
second Order about his asserted actual innocence. First, Guisao represents that the
testimony of Dr. Willey would challenge the medical testimony used to support the
sexually battered child’s allegations. Second, Guisao admits that Dr. Willey was available
for trial and present at the post-conviction proceedings. Third, Guisao alleges that Dr.
Willey was not called to testify at either the trial or the post-conviction proceedings (even
though Dr. Willey was present at the post-conviction evidentiary hearing) because both

3

e>3

Case » 8:15-cv-00009-MSS-AAS
%

Document 10

Filed 03/26/2018

Page 4 of 9 PagelD 91

trial and post-conviction counsel were ineffective. Guisao’s specific representations are'
as follows (Doc. 8 at 3):
Dr. Willey, M.D. was available for trial and for the Evidentiary Hearing but
was not called. Dr. Willey, M.D. would have testified that the exam done by
Ms. Nadkami (nurse practitioner) was incomplete for either diagnostic or
medical treatment and was incomplete for confirming the allegation made
by E.L. (the alleged victim) because an internal exam was not done, nor
were other available tests that are generally accepted in the scientific
community done which would include the use of a dye on the external area
to show microscopic fissures in the external anal area. Dr. Willey, M.D.
would have also testified that Ms; Nadkami's opinions regarding the length
of time semen can be detected, her opinion regarding the likelihood of
physical findings, and the type of exam she did would not be generally
accepted in the relevant medical community.
The Petitioner did not fully learn about Dr. Willey’s possible testimony until
long after the Evidentiary Hearing when discussing WHY this witness was
not called at the Evidentiary Hearing.
Post-conviction Counsel told the Petitioner before the Evidentiary Hearing
that the next time he would be called back to court would be to release the
Petitioner and talk about monetary compensation.
Post-conviction Counsel led the Petitioner and his family to believe that
everything was taken care of and that the Petitioner would be released very
soon.

DISCUSSION
To rely on the “actual innocence” (or “manifest injustice” or “fundamental
miscarriage of justice”) exception, “such a claim requires petitioner to support his
allegations of constitutional error with new reliable evidence — whether it be exculpatory
scientific evidence, trustworthy eyewitness accounts, or critical physical evidence — that
was not presented at trial." Schlup, 513 U.S. at 324. The earlier Order (Doc. 5) explained
“that ‘actual innocence’ means factual innocence not mere legal insufficiency.” Bousley
v. United States, 523 U.S. 614, 614 (1998). Additionally the petitioner must “demonstrate

4

Case 8:15-cv-00009-MSS-AAS

Document 10

Filed 03/26/2018

Page 5 of 9 PagelD 92

that more likely than not, in light of the new evidence, no reasonable juror would find him
guilty beyond a reasonable doubt." House, 547 U.S. at 538.
In the response to the second Order to show cause, Guisao relies on Dr. Willey's
testimony as “new evidence" that, if presented, could rebut the expert testimony used to
support the victim’s allegations of sexual battery. However Guisao’s evidence is neither
“new” nor sufficient to satisfy the actual innocence exception for two reasons.
First, Dr. Willey’s proposed testimony does not qualify as “new evidence" because
trial and post-conviction counsel either did know or should have known about the
evidence Guisao claims proves that he is innocent. Guisao admits that Dr. Willey was
available for trial and actually present (but not called to testify) for the post-conviction
evidentiary hearing, and as a consequence, the proposed testimony is not “new.” See,
e.g., United States v. Staff\ 275 Fed. App’x 788, 790 (10th Cir. 2008) (finding that
evidence was not “new” because it was available and could have been presented at trial);
Goldblum v. Klem, 510 F.3d 204, 226 n. 14 (3d Cir. 2007) ("Evidence is not ‘new’ if it was
available at trial, but a petitioner merely chose not to present it to the jury.”); Amrine v.
Bowersox, 238 F.3d 1023, 1029 (8th Cir.) (approving district court’s determination on
remand that “evidence is new only if it was not available at trial and could not have been
discovered earlier through the exercise of due diligence”), cert, denied, 534 U.S. 963

(2001).
Moreover, Guisao represents that Dr. Willey was present for the evidentiary
hearing in the state post-conviction proceeding (Doc. 4 at 3):
The Petitioner identified the expert witness Dr. Edward N. Willey, M.D. and
proffered the testimony that he would have testified to at trial. Furthermore,
Dr. Willey, M.D. was present, ready and wanted to testify at the Evidentiary

5

Case 8:15-cv-00009-MSS-AAS

Document 10

Filed 03/26/2018

Page 6 of 9 PagelD 93

Hearing but was never called due to constitutionally ineffective assistance
of post-conviction counsel.
This proposed testimony was intended to support Guisao’s ground two. As the post­
conviction court stated in denying relief (Doc. 1-1 at 1), post-conviction counsel withdrew
this ground at the evidentiary hearing:
At the April 16, 2013, evidentiary hearing on Defendant’s Motion for PostConviction Relief, Defendant withdrew grounds two, three, and four of his
Motion and proceeded only on ground one, resulting in the Court’s dismissal
with prejudice of grounds two, three, and four.
Consequently, the basis for proving “actual innocence” — Dr. Willey's testimony — was
abandoned during the state post-conviction proceedings and is inadequately supported
here. Affording a generous interpretation to his response to the second Order to show
cause, Guisao represents that he cannot be more specific about Dr. Willey’s proposed
evidence (1) because he does not know what testimony Dr. Willey would present,
(2) because Dr. Willey will not release the purported evidence to him, and (3) because
post-conviction counsel was ineffective for not requesting the evidence even though
Dr. Willey was present for the evidentiary hearing (Doc. 8 at 5) (emphasis original):
Dr. Willey has documents that are necessary and relevant to these
proceedings but will only turn them over to the court or an attorney, hence
the Petitioner's request for this Honorable Court to either order Dr. Willey to
provide all documents related to this present case at bar to this Honorable
Court and/or schedule an Evidentiary Hearing so the Petitioner can present
the live testimony of Dr. Willey in conjunction with the supporting documents
proving the Petitioner's actual and factual innocence.
The Petitioner has NEVER seen these documents and Dr. Willey told the
Petitioner’s family that the Petitioner’s post-conviction counsel NEVER
requested the documents that PROVE the Petitioner did not commit these
allegations.
The Petitioner does fully believe that Dr. Willey has testimony and
documents that the Petitioner has never seen or heard about that are “new
reliable evidence" that will show and prove the Petitioner is innocent of
6

bu>

pase 8:15-cv-00009-MSS-AAS

Document 10

Filed 03/26/2018

Page 7 of 9 PagelD 94

these allegations and that a true fundamental constitutional miscarriage of
justice has transpired.
In these representations Guisao admits that he does not know what evidence Dr. Willey
would present as proof of Guisao’s actual innocence. Guisao must present more than
his speculation about the proposed testimony. Cochran v. McNeil, 2009 WL 1748522 at
*3 (M.D. Fla. June 18,2009) (“Furthermore, ‘[a] petitioner's own affidavit adds little weight
to an actual innocence claim because it is self-serving and inherently unreliable.”’)
(quoting Rickard v. Wolfe, 2007 U.S. Dist. LEXIS 92447 at * 11,2007 WL 4526522 (N.D.
Ohio Dec. 17, 2007). See United States v. Ashimi, 932 F.2d 643, 650 (7th Cir. 1991)
("Under whatever framework, however, evidence about the testimony of a putative
witness must generally be presented in the form of actual testimony by the witness or an
affidavit. A defendant cannot simply state that the testimony would have been favorable;
self-serving speculation will not sustain an ineffective assistance claim.”) (footnotes
omitted); Estiven v. Sec’y, Dep’t of Corr., 2017 WL 6606915 at *4 (11th Cir. Sept. 28,
2017) (citing Ashimi for the proposition that “speculation cannot form the basis of a valid
claim" and denying application for a certificate of appealability).

See a/so Tejada v.

Dugger, 9AT F.2d 1551, 1559 (11th Cir. 1991) (recognizing that vague, conclusory, or
unsupported allegations cannot support an ineffective assistance of counsel claim), cert,
denied, 502 U.S. 1105 (1992); Aldrich v. Wainwright, 777 F.2d 630, 636 (11th Cir. 1985)
("Speculation is insufficient to carry the burden of a habeas corpus petitioner as to what
evidence could have been revealed by further investigation.").1

'1 Similarly, Guisao asserts that “Dr. Willey is ready to testify right now, as is E.L. (the alleged
victim)....” (Doc. 8 at 4) Guisao does not disclose the victim’s trial testimony or reveal the basis
for his belief that the victim would now testify favorably for him.
7

61

Case §: 15-CV-00009-MSS-AAS

Document 10

Filed 03/26/2018

Page 8 of 9 PagelD 95

Second, the “new evidence" only addresses part of the prosecution's case.
Schlup, 513 U.S. at 328 (determining that the actual innocence exception requires the
court to review the entirety of the evidence). The "new evidence" does not rebut either
the victim’s testimony or the testimony by a child protective services nurse practitioner,2
upon which a reasonable juror could rely to convict Guisao. House, 547 U.S. at 538.
Guisao fails to meet the actual innocence exception to the limitation and, as a
consequence, review of the petition is barred. Guisao may move under Rules 59(e) or
60(b), Federal Rules of Civil Procedure, to re-open this action if he acquires an affidavit,
sworn under the penalty of perjury, from Dr. Willey or the victim. To qualify for the “actual
innocence" exception to the limitation, the affidavit must contain “new” evidence (1) that
is proof of Guisao’s “factual innocence,” Bousley, 523 U.S. at 614, and (2) that, “in light
of the new evidence, no reasonable juror would find him guilty beyond a reasonable
doubt.” House, 547 U.S. at 538.
Accordingly, the petition for the writ of habeas corpus (Doc. 1) is DISMISSED AS
TIME-BARRED. The CLERK is directed to CLOSE this case.

2 Guisao alleges that trial counsel was ineffective for not objecting to the state's “improper
bolstering of the victim” by presenting the testimony of the nurse practitioner, who allegedly
testified to hearsay statements by both the victim and the victim’s mother. This was the sole
ground pursued at the post-conviction evidentiary hearing. The court denied this claim of
ineffective assistance of counsel because of a failure “to present any competent and substantial
evidence at the [post-conviction evidentiary] hearing.” (Doc. 1, Exhibit A at 3) The nurse
practitioner was also the prosecution’s expert witness who examined the victim. Although Dr.
Willey’s proposed testimony would allegedly rebut the nurse practitioner’s testing and findings,
the proposed testimony would not have affected the testimony that Guisao characterizes as
“bolstering,” which testimony the state court determined was admissible under state law.
8

B6

Case 8;15-cv-00009-MSS-AAS

Document 10

Filed 03/26/2018

Page 9 of 9 PagelD 96

CERTIFICATE OF APPEALABILITY
AND
LEAVE TO APPEAL IN FORMA PAUPERIS
IT IS FURTHER ORDERED that Guisao is not entitled to a certificate of
appealability. A prisoner seeking a writ of habeas corpus has no absolute entitlement to
appeal a district court’s denial of his petition. 28 U.S.C. § 2253(c)(1). Rather, a district
court must first issue a certificate of appealability (“COA"). Section 2253(c)(2) limits the
issuing of a COA “only if the applicant has made a substantial showing of the denial of a
constitutional right.”

To merit a certificate of appealability, Guisao must show that

reasonable jurists would find debatable both (1) the merits of the underlying claims and
(2) the procedural issues he seeks to raise.

See 28 U.S.C. § 2253(c)(2); Slack v.

McDaniel, 529 U.S. 473,478 (2000); Eagle v. Linahan, 279 F.3d 926, 935 (11th Cir 2001).
Because the petition is clearly time-barred and he fails to show that reasonable jurists
would debate untimeliness, Guisao is not entitled to a certificate of appealability and he
is not entitled to appeal in forma pauperis.
Accordingly, a certificate of appealability is DENIED. Leave to appeal in forma
pauperis is DENIED. Guisao must obtain permission from the circuit court to appeal in
forma pauperis.
DONE AND ORDERED in Tampa, Florida, 26th day of March, 2018.

MARWS
UNITED SPATES DISTRICT JUDGE

9

